OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID REGIONAL
DEVELOPMENT MISSION/ASIA’S
DEVELOPMENT CREDIT
AUTHORITY


AUDIT REPORT NO. 5-440-06-004-P
MAY 11, 2006




MANILA, PHILIPPINES
     Office of Inspector General


     May 11, 2006

     MEMORANDUM

     TO:                  Regional Development Mission/Asia Director, Timothy T. Beans

     FROM:                RIG/Manila, Catherine M. Trujillo /s/

     SUBJECT:             Audit of USAID Regional Development Mission/Asia’s Development
                          Credit Authority (Report No. 5-440-06-004-P)


     This memorandum transmits our final report on the subject audit. In finalizing the report,
     we considered your comments to the draft report and included the comments in
     Appendix II.

     This report contains six recommendations to improve USAID Regional Development
     Mission/Asia’s oversight of its Development Credit Authority loan portfolio guarantees.
     Based on your comments, management decisions have been reached on all six
     recommendations. The Regional Development Mission/Asia should coordinate final
     actions on these recommendations with the Audit, Performance and Compliance Division
     of USAID’s Office of the Chief Financial Officer.

     I want to thank you and your staff for the cooperation and courtesy extended to us during
     the audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Boulevard, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Finding ................................................................................................................... 4

Did USAID’s Regional Development Mission/Asia
manage its Development Credit Authority
guarantees to ensure that selected
intended results were achieved? ....................................................................................... 4

     Better Monitoring Could Improve
     Loan Portfolio Guarantee Performance ...................................................................... 5

Evaluation of Management Comments ....................................................................... 11

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 14
SUMMARY OF RESULTS
The Development Credit Authority (DCA) is a broad financing authority that allows
USAID to use credit to pursue any of the development purposes specified under the
Foreign Assistance Act of 1961, as amended. The DCA is designed to overcome
lending obstacles encountered in the commercial banking sector, which is often unwilling
to lend funds to a particular sector or borrower(s). USAID’s DCA credit guarantees
encourage commercial banks to finance targeted development projects that otherwise
would most likely not be funded. They also encourage local private-sector lending and
stimulate the development of local capital markets. Guarantees typically cover up to 50
percent of a loan. (See page 2.)

This audit was one in a series of worldwide audits of USAID’s Development Credit
Authority. The objective of this audit was to determine whether USAID’s Regional
Development Mission/Asia (RDM/Asia) managed its DCA guarantees to ensure that
selected intended results were achieved. (See page 3.)

RDM/Asia managed its DCA guarantees to ensure that selected intended results were
achieved; however, not all selected intended results were achieved. RDM/Asia’s three
DCA loan portfolio guarantees supported the Mission’s “Transition to an Open, Market-
Based Economy Accelerated” strategic objective. The Mission was not able to utilize its
student loan portfolio guarantee, and as a consequence, the loan guarantee only met
one selected intended result of supporting its strategic objective. Despite the obstacles
of Vietnam’s emerging private sector, RDM/Asia’s two Small and Medium Enterprises
(SME) loan portfolio guarantees funded activities that reflected the intended purposes of
the loans, kept utilization fees current, and funded activities that expected positive
financial rates of return. (See page 4.) However, RDM/Asia did not fully monitor its DCA
loan portfolio guarantees. (See page 5.) This occurred because the Mission did not
establish certain procedures to more proactively detect and promptly resolve compliance
or performance issues. As a result, (1) after two years, no loans had been issued under
the student loan portfolio guarantee and the two SME loan portfolio guarantees fell short
of their performance goals, (2) two of 12 loans did not qualify for loan guarantee
coverage, and (3) partnering banks did not understand certain aspects of the loan
portfolio guarantees they were implementing. (See pages 6, 7, 9 and 10.)

This report makes six recommendations to improve RDM/Asia’s oversight of its DCA
loan portfolio guarantees. (See pages 7, 9, and 10.) Based on RDM/Asia’s comments,
management decisions have been reached on all six recommendations. (See page 11.)
RDM/Asia’s comments are included as Appendix II to this report. (See page 14.)




                                                                                       1
BACKGROUND
The Development Credit Authority (DCA) is a broad financing authority that allows
USAID to use credit to pursue any of the development purposes specified under the
Foreign Assistance Act of 1961, as amended. The DCA is designed to overcome
lending obstacles encountered in the commercial banking sector, which is often unwilling
to lend funds to a particular sector or borrower(s). USAID’s DCA credit guarantees
encourage commercial banks to finance targeted development projects that otherwise
would most likely not be funded. They also encourage local private-sector lending and
stimulate the development of local capital markets. One way credit guarantees
encourage lending is by guaranteeing up to 50 percent of a loan.

Congress gave USAID the general authority to provide loan and bond guarantees in the
Appropriations Act for Fiscal Year 1998. In April 1999, the Office of Management and
Budget certified USAID's capacity to properly manage credit programs—to accurately
assess risk and to operate viable financial management and accounting systems.
Subsequently, USAID began to exercise its DCA authority.

DCA credit guarantees are typically designed by USAID's overseas missions and
managed jointly by the missions and USAID’s Office of Development Credit (ODC).
Missions are solely responsible for development monitoring, while the ODC and
missions are both responsible for financial monitoring. Four types of DCA guarantees
are available, including loan portfolio guarantees. 1 As of September 30, 2005, USAID
had signed 153 DCA guarantees, making credit totaling nearly $1.1 billion available, with
cumulative utilization amounting to nearly $317 million. 2

USAID’s Regional Development Mission/Asia (RDM/Asia), which opened in Bangkok,
Thailand in June 2003, manages regional and country-specific programs in mainland
Southeast Asia (Burma, China, Laos, and Vietnam). Of these countries, RDM/Asia
established DCA loan portfolio guarantees only in Vietnam. As shown in Table 1 on the
next page, RDM/Asia established three loan portfolio guarantees with two banks in
Vietnam in September 2003.




1
 A loan portfolio guarantee covers a pool of new loans from one financial institution to multiple
borrowers in an area or sector specified by USAID. USAID shares the risk of default on the
portfolio of loans to those borrowers.
2
 These numbers are unaudited. Cumulative utilization is the total dollar amount of loans placed
under guarantee coverage.




                                                                                               2
      TABLE 1: RDM/ASIA’S DCA LOAN PORTFOLIO GUARANTEES IN VIETNAM 3
            Partnering        DCA Loan Portfolio   Maximum Credit   USAID Guarantee
              Bank               Guarantee            Available         Ceiling
                              Small and Medium
        Asia Commercial                               $5,000,000       $2,500,000
                              Enterprises
        Bank
                              Student Loan              500,000           250,000

        Eastern Asia          Small and Medium
                                                       5,000,000         2,500,000
        Commercial Bank       Enterprises

                              Totals                 $10,500,000       $5,250,000


The two Small and Medium Enterprises loan portfolio guarantees end in 2008, and the
one student loan portfolio guarantee ends in 2011. As of September 30, 2005, these
loan guarantees had generated 54 loans totaling over $3.4 million, and neither
partnering bank had made claims for delinquent loans against the $1.7 million that had
been guaranteed by USAID.

AUDIT OBJECTIVE
This audit was one in a series of worldwide audits of USAID’s Development Credit
Authority, conducted as part of the Office of Inspector General’s fiscal years 2005 and
2006 annual audit plans. The audit was conducted to answer the following question:

•     Did USAID’s Regional Development Mission/Asia manage its Development Credit
      Authority guarantees to ensure that selected intended results were achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




3
    The figures in the table are unaudited.

                                                                                      3
AUDIT FINDING
Did USAID’s Regional Development Mission/Asia manage its
Development Credit Authority guarantees to ensure that selected
intended results were achieved?
USAID’s Regional Development Mission/Asia (RDM/Asia) managed its Development
Credit Authority (DCA) guarantees to ensure that selected intended results were
achieved; however, not all selected intended results were achieved.

RDM/Asia’s three DCA loan portfolio guarantees supported the Mission’s “Transition to
an Open, Market-Based Economy Accelerated” strategic objective by addressing key
obstacles facing Vietnam’s emerging private sector. More specifically, the DCA loan
portfolio guarantees were established to increase loans to financially viable small and
medium enterprises and to encourage promising business leaders to obtain higher
education in economics and business management.

As discussed on page 6 of this report, the Mission was not able to utilize its student loan
portfolio guarantee, and as a consequence, the loan guarantee only met one selected
intended result—that of supporting the Mission’s strategic objective. Despite the
obstacles of Vietnam’s emerging private sector, RDM/Asia’s two Small and Medium
Enterprises (SME) loan portfolio guarantees funded activities that reflected the intended
purposes of the loans. For example:

•   A company that manufactures tarpaulin used its loan to build a newer, larger
    manufacturing plant. This increased capacity allowed the company to begin
    exporting its product, which is used for various purposes such as temporary shelters,
    canopies, and greenhouse covers.

•   A second company used its loan to purchase additional equipment and raw materials
    for manufacturing high-density polyethylene pipes used in drainage and irrigation
    systems. A company spokesman explained that the partnering bank had rejected
    the company’s previous loan application because of insufficient collateral, but the
    rejected loan application was subsequently approved under the DCA loan portfolio
    guarantee.

Moreover, SME utilization fees were current as of September 30, 2005, and activities
funded by the SME loan guarantees expected positive financial rates of return. 4




4
   Partnering banks pay semiannual utilization fees to USAID based on the average outstanding
principal under guarantee during the semiannual period.


                                                                                           4
                                                      OIG photograph of a tarpaulin factory
                                                      in Binh Duong Province, Vietnam.
                                                      RDM/Asia’s SME loan guarantee
                                                      helped the borrower build the factory
                                                      and expand his business. (October
                                                      2005)




However, as described in the next section, better monitoring by RDM/Asia could help its
loan portfolio guarantees achieve all their intended results.

Better Monitoring Could Improve Loan
Portfolio Guarantee Performance
 Summary: According to USAID’s DCA Operations Manual, RDM/Asia is solely
 responsible for development monitoring, while USAID’s Office of Development Credit
 (ODC) and RDM/Asia are both responsible for financial monitoring. However,
 RDM/Asia did not fully monitor its loan portfolio guarantees at partnering banks. This
 occurred because the Mission did not establish certain procedures to more
 proactively detect and promptly resolve compliance or performance issues. As a
 result, (1) after two years, no loans had been issued under one loan guarantee and
 two others fell short of their performance goals, (2) two of 12 loans did not qualify for
 loan guarantee coverage, and (3) partnering banks did not understand certain
 aspects of their loan guarantees.

According to USAID’s DCA Operations Manual, RDM/Asia is solely responsible for
development monitoring, while the ODC and RDM/Asia are both responsible for financial
monitoring. To carry out its monitoring responsibilities, RDM/Asia included a monitoring
plan in its DCA Action Package that was approved by USAID’s Chief Financial Officer on
June 5, 2003. The monitoring plan stated that RDM/Asia would meet with bank
management, clarify how issues are to be resolved, monitor the status of the project,
and determine if there are compliance or performance issues. The plan also required
RDM/Asia to make semiannual visits to the partnering banks during the first year of a
loan guarantee and annual visits thereafter.

RDM/Asia did perform some activities outlined in its monitoring plan. During fiscal year
2005, the Mission conducted annual visits to its partnering banks, acted as liaison
between the banks and the ODC, and maintained contact with the banks by e-mail and
telephone. In addition to the required visits, RDM/Asia together with the ODC conducted
four other site visits from February 2004 to August 2005.



                                                                                             5
However, program performance was hampered because the RDM/Asia did not
proactively monitor certain aspects of its loan portfolio guarantees to identify and
promptly resolve compliance and performance issues. For example, RDM/Asia did not
have procedures to (1) promptly resolve problems identified during site visits that were
affecting loan guarantee performance, (2) set utilization targets or regularly use
utilization targets as a tool for monitoring, (3) test whether loans issued by partnering
banks met eligibility requirements, and (4) provide sufficient technical assistance to the
partnering banks. Additionally, the Mission did not have a full-time and dedicated
economic growth officer in place until March 2005, and as one ODC official put it: “this
program has likely suffered” as a result.

Consequently, certain intended results were not achieved and partnering banks did not
fully understand the loan guarantees they were charged with implementing. To better
ensure that its DCA loan guarantees achieve all their intended results, RDM/Asia should
address the following issues.

Student Loan Portfolio Guarantee Not Utilized – After two years the partnering bank
had not issued any loans under this loan guarantee. Because almost no credit was
available for educational financing in Vietnam, RDM/Asia, on September 12, 2003,
established this eight-year loan guarantee to provide up to $500,000 in loans to students
seeking higher education in economics and business management. The partnering
bank did not issue student loans because RDM/Asia did not proactively monitor the
partnering bank.

For example, RDM/Asia, in conjunction with the ODC, did not establish utilization
targets for this loan guarantee. As a result, the partnering bank did not have a goal that
it could strive to achieve and RDM/Asia did not have a baseline against which it could
measure the bank’s progress in promoting this loan guarantee. The DCA Operations
Manual requires missions to provide feedback to determine whether the use of DCA
guarantees has out-performed or under-performed planned utilization.

Additionally, although RDM/Asia made site visits to the partnering bank, it did not take
timely action to resolve problems identified during those visits. For example, Mission
and/or ODC staff visited the bank in February, July and October of 2004. All three trip
reports reported that no loans were being issued and all cited the bank’s collateral
policies as a problem.

For instance, the July trip report noted that, despite USAID agreeing to guarantee 50
percent of each loan, the bank was requiring potential student borrowers to provide
collateral at a level similar to that required under the bank’s regular loan programs,
which were not supported by loan guarantees. The trip report concluded that there was
a need to better inform the bank of student loan program concepts and review the bank’s
risk assessment policy. In his October trip report, an ODC official cited the collateral
problem and noted that measures needed to be taken to cancel the loan guarantee,
move it to another bank, or make it successful.

However, there was no evidence that RDM/Asia took remedial action to resolve the
collateral problem after any of these site visits. This occurred, in part, because the
Mission did not have a system to document, track and promptly resolve problems
identified in site visits that were affecting loan guarantee performance.


                                                                                        6
In April 2005, RDM/Asia began to address the lack of loans by establishing a task force
to better coordinate efforts between the partnering bank and the schools. In September
2005, as part of the task force’s marketing strategy, RDM/Asia awarded a grant to the
Hanoi School of Business with the purpose to make student loans accessible to needy
students and to increase awareness, understanding, and benefits of educational funding.
The key outcome indicators were to generate at least 30 loan applications and award
10-15 loans within one year. However, the task force was not charged with addressing
cumulative utilization targets or promptly resolving problems identified in trip reports.

Because six years remain on the partnering bank’s loan guarantee agreement, there is
time for the Mission to invigorate the student loan guarantee; therefore, we are making
the following recommendations to contribute to the success of the student loan portfolio
guarantee.

      Recommendation No. 1: We recommend that USAID’s Regional Development
      Mission/Asia, in conjunction with the Office of Development Credit, establish
      cumulative utilization targets in dollars for its student loan portfolio guarantee,
      and that the Regional Development Mission/Asia develop and implement
      procedures to regularly report on whether the guarantee out-performed or under-
      performed planned utilization.

      Recommendation No. 2: We recommend that USAID’s Regional Development
      Mission/Asia develop and implement procedures to document, track and promptly
      resolve significant problems affecting loan guarantee performance identified in site
      visits.

SME Loan Portfolio Guarantees Did Not Meet Utilization Targets – RDM/Asia’s two
SME loan guarantees did not meet their most recent cumulative utilization targets.
Cumulative utilization is the total dollar amount of loans placed under guarantee
coverage at a point in time. The monitoring and evaluation of cumulative utilization is
one method that USAID uses to determine whether DCA loan portfolio guarantees
achieve their intended results.

Based on financial data provided by RDM/Asia’s partnering banks, the ODC established
semiannual cumulative utilization targets for the two loan guarantees. As shown in
Table 2, the loan guarantees fell significantly short of their cumulative targets for the
period ending September 30, 2005.

                    TABLE 2: CUMULATIVE UTILIZATION PERFORMANCE 5
                                (As of September 30, 2005)
                                                  Cumulative Utilization        Actual
           Partnering           Loan Portfolio                                   As a
             Bank                Guarantee                                   Percentage of
                                                   Target        Actual
                                                                                Target
        Asia Commercial      Small and Medium
                                                  $2,700,000    $1,700,000        63%
        Bank                 Enterprises
        Eastern Asia         Small and Medium
                                                  $3,800,000    $1,700,000        45%
        Commercial Bank      Enterprises


5
    The figures in the table are unaudited.

                                                                                             7
For the period ending March 31, 2005, both loan guarantees exceeded their cumulative
utilization targets. Based on this performance, ODC officials set cumulative utilization
targets for the period ending September 30, 2005, at twice the actual cumulative
utilization that the two loan guarantees had achieved from their inception in September
2003 through March 2005. Given the loan guarantees past performance and the
private-sector environment in Vietnam, the September 2005 targets might have been too
ambitious.

Nevertheless, RDM/Asia could have more proactively monitored cumulative utilization.
Specifically, RDM/Asia did not regularly use established targets to monitor and evaluate
the performance of its partnering banks. For example, RDM/Asia did not compare
monthly cumulative utilization reports from partnering banks to the semiannual targets to
gauge progress. Trip reports from site visits also did not address actual versus targeted
performance.

As noted earlier, the DCA Operations Manual requires missions to provide feedback on
whether DCA guarantees are exceeding or falling short of planned utilization. Regular
monitoring of targets is important because it enables a mission to take timely remedial
action if a loan guarantee is not meeting its semiannual targets. In this case, staff from
both banks stated that it was increasingly difficult to issue new loans because borrowers
had to repay the loans within the time remaining on the banks’ loan guarantee
agreements—a period of time that decreases daily. This issue might have surfaced sooner
had RDM/Asia regularly monitored cumulative utilization.

Further, regular monitoring of actual performance against targets can be used to identify
opportunities to put DCA subsidies to better use. 6 According to the DCA Operations
Manual, a mission can deobligate its subsidy funds if it determines that all or a portion of
the funds will not be used. The deobligated funds can then be used for other DCA
guarantees, either in the same country or in other countries.

For its two SME loan guarantees, RDM/Asia had $535,000 in subsidy funds, some of
which the Mission may be in a position to put to better use because of both partnering
banks cumulative utilization performance. As shown in Table 2 (See page 7.), each
partnering bank had actual cumulative utilization of $1,700,000 at September 30, 2005.
This represents 34 percent of each bank’s maximum available credit (See Table 1 page 3.)
As mentioned above, partnering banks were having increasing difficulty issuing new loans.
Consequently, there might have been an opportunity to reduce the amount of subsidy funds
set aside to cover claims because the partnering banks might not utilize all their available
credit, thus reducing the amount that USAID will need to guarantee and the amount of
subsidy funds needed.

RDM/Asia was considering extending the life of its two SME loan guarantees to improve
cumulative utilization performance. Nonetheless, RDM/Asia can better monitor the
performance of its partnering banks by regularly comparing actual performance against
utilization targets. There might also be an opportunity for RDM/Asia to put subsidy funds to
better use.


6
  DCA subsidies are funds that have been obligated (set aside) to cover bank claims against DCA
loan guarantees because borrowers could not repay their loans.

                                                                                             8
      Recommendation No. 3: We recommend that USAID’s Regional Development
      Mission/Asia develop and implement procedures to regularly use established
      cumulative utilization targets to monitor and evaluate the performance of its loan
      portfolio guarantees.

      Recommendation No. 4: We recommend that USAID’s Regional Development
      Mission/Asia examine its Small and Medium Enterprises loan portfolio
      guarantees to determine if subsidy funds can be deobligated and put to better
      use.

Nonqualifying Loans Under SME Loan Portfolio Guarantees – Two of twelve loans
sampled should not have been included in SME loan guarantees because they did not
meet eligibility requirements. To ensure that loans were used to achieve intended
results, each agreement between RDM/Asia and its two partnering banks contained
standard loan eligibility terms. One term restricted the maximum cumulative principal
amount that could be loaned to a borrower to the local currency equivalent of $500,000.

However, as shown in Table 3 partnering banks exceeded the $500,000 loan limit for
two loans.

                                TABLE 3: NON-QUALIFYING LOANS 7
                                                            Maximum
                                              Cumulative   Cumulative       Excess
        Borrower        Partnering Bank        Amount       Principal       Amount
                                               Loaned        Amount         Loaned
                                                            Allowed
                     Asia Commercial
            A                                  $535,703      $500,000         $35,703
                     Bank
                     Eastern Asia
            B                                 $2,016,638     $500,000      $1,516,638
                     Commercial Bank

In part, this occurred because RDM/Asia’s monitoring plan lacked a specific review
component to test the eligibility of loans issued by partnering banks. Had Mission staff
tested loan eligibility during site visits, they would have detected that the two borrowers
had received more monies than was permitted. Generally, Mission staff relied on
partnering banks’ “Certification of Qualifying Loan” reports for proof of eligibility. From
the partnering banks perspective, Eastern Asia Commercial Bank employees did not
fully understand the eligibility term, and Asia Commercial Bank employees described
their error as an oversight and failed to correct it. Subsequent to our audit fieldwork, the
ODC removed these two loans from guarantee coverage. Nonetheless, there is still the
need for a review process to ensure the partnering banks are meeting loan eligibility
requirements.

      Recommendation No. 5: We recommend that USAID’s Regional Development
      Mission/Asia develop and implement procedures to periodically review eligibility of
      loans under its loan portfolio guarantees.




7
    The figures in the table are unaudited.

                                                                                            9
Partnering Banks Need More Technical Assistance – Both partnering banks did not
understand certain aspects of their loan portfolio guarantees. This unfamiliarity
contributed to the compliance and performance issues discussed in previous sections of
this report. As mentioned earlier, Eastern Asia Commercial Bank did not fully
understand the terms in its SME loan guarantee agreement and, as a result, issued a
nonqualifying loan. Similarly, the Asia Commercial Bank was not able to utilize its
student loan guarantee, in part, because it did not understand the concepts behind a
loan guarantee. Further, in April 2005 the Asia Commercial Bank replaced the bank
officer in charge of its SME loan guarantee with another officer who did not have
experience with or knowledge about DCA loan guarantees.

The ODC did provide training to RDM/Asia’s partnering banks in February 2004 on how
to submit their loan schedules through the ODC’s Credit Management System website.
However, the partnering banks have had no formal training since then.

RDM/Asia has recognized that partnering banks needed more technical assistance. For
example, a February 2004 trip report noted that the partnering banks needed technical
assistance and training. A July 2004 trip report noted that there was a need to better
inform the Asia Commercial Bank of the concepts of a loan guarantee. Finally, in its
fiscal year 2005 annual report, RDM/Asia reported that it would provide training to its
partnering banks. However, the planned training did not materialize in FY 2005 because
of scheduling conflicts between the partnering banks.

During our audit, RDM/Asia indicated that it would provide technical assistance, in
collaboration with the ODC, in fiscal year 2006 through selected training courses. It is
important that RDM/Asia provides the needed technical assistance.

   Recommendation No. 6: We recommend that USAID’s Regional Development
   Mission/Asia establish a plan of action that identifies the areas where its partnering
   banks need technical assistance and includes milestones to provide the needed
   technical assistance.




                                                                                            10
EVALUATION OF
MANAGEMENT COMMENTS
USAID Regional Development Mission/Asia’s written comments on the draft report are
included in their entirety as Appendix II to this report.

The Regional Development Mission/Asia agreed with Recommendation Nos. 1, 2, 3, 4, 5
and 6, and it detailed the actions it has taken or plans to take to implement the
recommendations, including target completion dates where applicable. Based on our
review of the detailed actions, we consider that management decisions have been reached
on all six recommendations. The Mission should coordinate final actions on these
recommendations with the Audit, Performance and Compliance Division of USAID’s Office
of the Chief Financial Officer.




                                                                                    11
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether USAID’s Regional Development Mission/Asia (RDM/Asia) managed its
Development Credit Authority (DCA) guarantees to ensure that selected intended results
were achieved. Audit fieldwork was conducted at RDM/Asia’s country representative
office in Vietnam and at various bank office locations and borrowers’ sites within
Vietnam from October 4 through October 21, 2005.

In planning and performing the audit, we assessed the effectiveness of internal controls
related to DCA guarantees.       We identified pertinent internal controls such as
(1) RDM/Asia’s procedures for managing and monitoring its DCA guarantees,
(2) partnering banks’ procedures regarding DCA loan approvals and payments, and
(3) RDM/Asia’s annual self-assessment of internal controls in accordance with the
Federal Managers’ Financial Integrity Act.      Relevant criteria included USAID’s
Automated Directives System 249 and USAID’s Office of Development Credit’s DCA
Operations Manual. There were no prior audit findings affecting the areas reviewed in
this audit.

Our audit scope encompassed RDM/Asia’s three DCA loan portfolio guarantees as of
September 30, 2005. These three loan portfolio guarantees made credit of $10.5 million
available, while guaranteeing a maximum of $5.25 million. As of September 30, 2005,
these three guarantees had generated 54 loans totaling over $3.4 million.

The intended results related to RDM/Asia’s DCA loan portfolio guarantees selected for
review included determining whether:

•   Guarantees supported the strategic objective(s) specified in the documentation
    submitted by RDM/Asia and approved by USAID’s Credit Review Board.

•   Loans were qualified loans and satisfied the terms and conditions specified in the
    guarantee agreement between USAID and the partnering bank.

•   Activities funded by the loan portfolio guarantees reflected the intended loan
    purposes stipulated in the partnering banks’ loan files.

•   RDM/Asia achieved its utilization projections for the dollar amount of loans generated
    by its loan portfolio guarantees as of September 30, 2005.

•   Loan portfolio guarantee utilization fees were current.

•   Activities funded by the loan portfolio guarantees expected positive financial rates of
    return.




                                                                                        12
Our audit scope did not include DCA guarantee macro-level results, such as impact on
unemployment, job creation, or other economic growth indicators.

Methodology
To answer the audit objective, we performed detailed reviews of all three loan portfolio
guarantees from the two partnering banks of USAID’s Regional Development
Mission/Asia. We judgmentally selected 12 of 54 loans for detailed loan file reviews and
made borrower site visits for 6 of 12 loans reviewed. The 12 loans represented 80
percent of the total dollar amount utilized under RDM/Asia’s loan portfolio guarantees as
of September 30, 2005.

We interviewed RDM/Asia staff and management and loan officers of the two partnering
banks—including officers at bank headquarters as well as those in selected branch
offices. For the loans selected for audit, we performed detailed loan file reviews at the
banks’ offices and reviewed supporting documentation maintained by RDM/Asia for all
three loan portfolio guarantee agreements. We also interviewed selected borrowers and
conducted site visits to observe the projects and activities funded by the selected loans.
Additionally, we communicated with USAID officials in Washington D.C.

We did not determine materiality thresholds for the audit objective.




                                                                                       13
                                                                         APPENDIX II



MANAGEMENT COMMENTS




  TO:                  Catherine M. Trujillo             DATE:         May 8, 2006

  FROM:                Peter Hubbard, Acting Mission Director /s/
                       Regional Development Mission/Asia (RDM/A)

  SUBJECT:             Audit of USAID Regional Development Mission/Asia’s
                       Development Credit Authority (Report N. 5-440-06-00X-P)




Dear Ms. Trujillo,

Thank you for sharing with us the draft report of RDM/A’s DCA audit. The draft
report is informative and generally well-documented. We find the
recommendations useful and take them as helpful for achieving more effective
results in the future. We request resolution of all recommendations on issuance of
the report. Below are our specific responses to each of the recommendations in
the draft report which you noted the RDM/A should address.

Student Loan Portfolio Guarantee Not Utilized:

Recommendation No. 1: We recommend that USAID’s Regional Development
Mission/Asia, in conjunction with the Office of Development Credit, establish
cumulative utilization targets in dollars for its student loan portfolio guarantee,
and that the Regional Development Mission/Asia develop and implement
procedures to regularly report on whether the guarantee out-performed or under-
performed planned utilization.



                                                                                      14
The Mission concurs with the audit recommendation, and notes that the Vietnam
Office has taken to resolve issues and problems with the credit programs. The
Action Memo on SME loan and Student Loan Guarantee dated July 24, 2003 and
June 5, 2003, was not clear as to who (EGAT/DC or RDM/A Vietnam Program
office) had primary responsibility of setting up the utilization targets. In
December 2004 the RDM/A Vietnam Program office took the lead in urging
EGAT/DC to come to Vietnam to address the lack of targets and performance
issues. EGAT/DC visited Vietnam in August 2005.

Following the EGAT/DC visit and in-depth discussions with all parties, the entire
student loan strategy and business plan were reviewed in further discussions with
the partner bank and participating schools. It was agreed that the bank’s loan
terms and risk-sharing arrangements with participating schools needed to be
significantly revised for all parties, including students, to have adequate
incentives to utilize the proposed loan facility.

Also after the EGAT/DC visit RDM/A established utilization targets for the
student loan portfolio guarantee. The Student Loan Promotion grant to Hanoi
School of Business (HSB) [the grant was approved last August and commenced in
last October], set forth the targets as key outcome indicators of the program.
Specifically:

   “Upon completion of the project in 12 months (by October 2006):
   - Minimum 30 loan applications completed for lending by Asia Commercial
   Bank (ACB);
   - 10-15 loans made to students from at least 3 different training institutions.”

These “indicators may be subject to revision after 6 months of program operation
upon discussion with, and formal approval, of USAID/Vietnam”. In this context,
the task force for student loans was set up as mechanism for better coordinating
efforts between the bank and the schools. The draft audit report states that this
task force was charged with addressing utilization targets or promptly resolving
problems as noted in the draft report that was not the intent. RDM/A Vietnam
Program office will monitor and report on utilization semi-annually.

In the recent visit by EGAT/DC staff in January 2006, the technical staff of
RDM/A Vietnam program office, EGAT/DC, the bank, and four participating
schools all jointly defined a new pilot program to determine the viability of this
student loan facility in Vietnam’s culture where the predominant method of
payment is family cash/savings, and there is a historical aversion to commercial
borrowing. A new and more attractive loan product has recently been designed
and approved by the Board of the bank; a new business and risk sharing
arrangement is currently being negotiated between each participating institution
and the bank; and new and more feasible goals/indicators have been set to test the
new program. Accordingly, the original HSB targets and implementation schedule
have been revised to take these new initiatives into account.



                                                                                      15
There is no question that a need exists for effective student loan access in
Vietnam. While the DCA program evokes a lot of interest on the part of the bank
and schools to fulfill this perceived need, the challenge remains to design a
facility in a commercially sustainable way supporting more effective borrowing
and lending for higher education. By establishing this new pilot guarantee facility,
RDM/A is helping bridge the credit gap – and in parallel – trying to trigger a
change of mindset and habit that makes student loans attractive, given Vietnam’s
institutional and cultural environment.

We do agree that this pioneering activity has taken much longer time than
expected. The banks and schools have been on a learning curve in what was, and
continues to be a pioneering type activity.

While RDM/A and EGAT/DC have worked hard to solve the problem, part of the
initial shortcoming was with the partnering bank, which assigned ineffective staff
to carry out the program. Both RDM/A and EGAT/DC recognized this weakness,
took the initiative to discuss it with the bank and proactively attempted to solve
the problem as promptly as practical. EGAT/DC promised to send either a US
banker or a technical staff from USAID/Panama’s DCA student loan program to
work in the bank to provide hands-on technical assistance and experience to
ACB’s staff. To date, EGAT/DC is planning to send a very capable banking
expert to work with ACB on the student loan program in April 2006. We have
asked the bank’s management to adhere to the bank’s commitment to the set new
targets for the redesigned pilot program.

Based on the actions described above we request that recommendation 1 be
resolved on issuance of the audit report. The Mission will establish dollar value
targets in the near future, and procedures to regularly report on performance, and
will request closure of this recommendation at that time.

Recommendation No. 2: We recommend that USAID’s Regional Development
Mission/Asia develop and implement procedures to document, track and promptly
resolve significant problems affecting loan guarantee performance identified in site
visits.

As stated above although there were problems early in the program, RDM/A
Vietnam Program and Economic Growth Offices have been working actively to
resolve problems affecting the loan guarantee programs. The staff now has a
good awareness of the situation and has been proactive in dealing with it. Based
on the information presented above the Mission believes it now has in place
procedures to work towards resolution of problems affecting loan guarantee
programs. RDMA/Vietnam will continue to monitor the program. Depending on
performance of this plan and targets, we will make a determination whether to
continue, modify or close the program. Modification might include de-obligating
the unutilized subsidy funds or moving the facility to another bank which has
proven to be an excellent partner in another project. In response to the audit
recommendation RDMA/Vietnam will clearly articulate in writing procedures to


                                                                                       16
document, track and promptly resolve significant problems affecting loan
guarantee performance. Based on this agreement we request resolution of this
recommendation.

SME Loan Portfolio Guarantees Did Not Meet Utilization Targets:

Recommendation No. 3: We recommend that USAID’s Regional Development
Mission/Asia develop and implement procedures to regularly use established
cumulative utilization targets to monitor and evaluate the performance of its loan
portfolio guarantees.

We concur with this recommendation. However the Mission plans to make this a
participatory process. EGAT/DC set utilization targets based on its monitoring
plan or in reliance on the banks’ utilization projections. This has resulted in
unrealistic targets which banks failed to meet. The banks were overly optimistic
about their capacity to disburse the facilities and set too ambitious targets. One
partnering bank (East Asia Commercial Bank - EAB) blamed the underutilization
on management’s moving priority from the DCA program to other donor’s credit
program. In the context of loan portfolio guarantee with two private financial
institutions, the banks have found it difficult to link the operational and financial
activities of borrowers to particular target indicators. It would likely be possible
and beneficial to assume some potential target areas of business (the bank’s
client/sector focus) and try to link relevant bank lending activities with our DCA
indicators.

To respond to this recommendation, RDM/A, EGAT/DC and the partner banks
will coordinate more closely in their activities for setting up realistic utilization
targets based on the banks’ performance and operation, and managing utilization
targets as a performance measure. We then will communicate with the banks’
management on the progress, document their responses and take appropriate
action for any shortfall. These reports and communications together with semi-
annual site visits will better track utilization.

RDM/A Vietnam Program office and EGAT/DC, in consultation with the banks,
will continue to establish utilization targets on a semiannual basis. This process
will incorporate realistic expectations for use of the guarantees based on more in-
depth discussions with the partner banks.

The Mission request resolution of recommendation 3. RDMA/Vietnam will
clearly articulate in writing procedures to regularly use established cumulative
utilization targets to monitor and evaluate the performance of its loan portfolio
guarantees, and request closure of the recommendation upon submission of that
document.




                                                                                        17
Recommendation No. 4: We recommend that USAID’s Regional Development
Mission/Asia examine its Small and Medium Enterprises loan portfolio
guarantees to determine if subsidy funds can be deobligated and put to better use.

The Mission concurs with this recommendation. The Mission has examined its
Small and Medium Enterprise loan portfolio and believes it is premature to
consider deobligation of the subsidy funds. While resolution of the difficulties
experienced to date with the program has taken time, the guarantees should not be
limited to free up the subsidy funds as long as there is still potential that they will
be fully used. From discussions with the banks, we believe that this potential still
exists. Within six months, based on performance the Mission will revisit the
issue, and write a memorandum detailing the analysis and decision process. The
Mission requests that recommendation 4 be resolved upon issuance, and closed
with the completion of the follow-up analysis and memo.

Non-qualifying Loans Under SME Loan Portfolio Guarantees

Recommendation No.5: We recommend that USAID’s Regional Development
Mission/Asia develop and implement procedures to periodically review eligibility
of loans under its loan portfolio.

The Mission concurs with this recommendation. The Mission notes that the
guarantee agreement establishes specific parameters for qualifying loans after
which the banks are the entity with the primary responsibility to adhere to these
parameters, and conduct due diligence to place eligible loans under coverage
without USAID notice of approval. Measures are in place by EGAT/DC during
the claim review process to ensure that claims will not be reimbursed in case of
default, if indeed the loan is ineligible for the guarantee. RDM/A staff is in
frequent communications with the banks, which routinely send RDM/A Vietnam
Program office a copy of CQL whenever a loan was made. The Mission will use
this information it currently receives to perform a semi-annual review of the loans
in the guarantee to check for eligibility. In addition, RDM/A annual site visits
will include more specific reviews of loan eligibility, in addition to loan eligibility
checks by EGAT/DC biennial reviews.

Based on this agreement we request the recommendation be resolved on issuance.
Documentation on the procedures to be implemented will be included with
recommendation 2 procedures. Closure will be requested when the
documentation of the planned procedures is complete.

Partnering Banks Needs More Technical Assistance

Recommendation No. 6: We recommend that USAID’s Regional Development
Mission/Asia establishes a plan of action that identifies the areas where its
partnering banks need technical assistance and includes milestones to provide the
needed technical assistance.



                                                                                          18
The Mission concurs with this recommendation. The action plan for technical
assistance for FY2006 is in place. After the recent EGAT/DC visit in January
2006, we have contracted Dickerson Knight Group (DKG) to deliver two training
courses for ACB’s executive and mid-level management on two subjects: SME
Customer-Based Marketing and SME Credit Risk Management. The training
represents effective cost-sharing with 60% funded by ACB and 40% funded by
EGAT/DC. The first training course will take place from April 3-8, 2006 (6 days)
and the second course will be held during April 25 to May 4, 2006 (7 days). Each
course will accommodate 28 participants and will be held in Ho Chi Minh City.
While the other partner bank (EAB) had asked for training for their staff, it
declined USAID’s offer for training citing that the bank has recently received
similar training from another donor. Moreover, EGAT/DC is now planning to
send one US expert on student loan to come to work with ACB on student loan
program in April 2006. Technical assistance for partnering banks relies on
EGAT/DC, which has again confirmed its commitment to provide technical
assistance to our partner banks within the planned timeframe.

Based on the information described above, we request that this recommendation
be resolved upon issuance. We will request closure on submission of a formal
action plan.

Finally, I would like to express our thanks for the recommendations as well as the
thorough review and the hard work of RIG auditors during their assignment in
RDM/A.




------------------------------
(Peter Hubbard)
Acting Mission Director




                                                                                     19
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
